OFFICE OF THE ATTORNEY GENERAL
CONNECTICUT

March 3, 2020

Scott S. Harris
Clerk of the United States Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE: Actavis Holdco US, Inc., et al. v. Connecticut, et al., No. 19-1010 Request for thirty-day extension to respond to petition for certiorari
Dear Attorney Harris:
On behalf of all Respondents and pursuant to Rule 30.4, the liaison
counsel for the State Respondents hereby respectfully requests a thirty (30)
day extension of time, up to and including April 15, 2020, to respond to the
pending petition for certiorari in the above-captioned matter. The petition
was docketed on February 13, 2020, and briefs in opposition currently are
due on March 16, 2020.
This request is made necessary because an amicus brief already has
been filed in this matter, and another amicus brief in support of the petition
is anticipated to be filed by March 12, 2020. The Respondents require the
additional time to incorporate responses to the amici submissions in their
opposition(s) to the petition for certiorari.

165 Capitol Avenue
Hartford, Connecticut 06106
An Affirmative Action/Equal Opportunity Employer

The Respondents therefore request an additional thirty (30) days in
which to respond to the petition, up to and including April 15, 2020.
Respectfully submitted,

ROBERTA D. LIEBENBERG
JEFFREY S. ISTVAN
Fine, Kaplan and Black, R.P.C.
One South Broad Street, 23rd Floor
Philadelphia, PA 19107
(215) 567-6565
Lead Counsel for the
End-Payer Plaintiffs
JONATHAN W. CUNEO
Cuneo, Gilbert & Laduca LLP
4725 Wisconsin Avenue, N.W. Suite
200
Washington, D.C. 20016
(202) 789-3960
Lead Counsel for Indirect Reseller
Plaintiffs
WILLIAM J. BLECHMAN
Kenny Nachwalter P.A.
1441 Brickell Avenue, Suite 110
Miami, FL 33131
(305) 373-1000
Counsel for the Kroger Direct Action
Plaintiffs and Liaison Counsel for
DAPs

165 Capitol Avenue
Hartford, Connecticut 06106
An Affirmative Action/Equal Opportunity Employer

_________________________________
CLARE E. KINDALL
Solicitor General of Connecticut
Counsel of Record
W. JOSEPH NIELSEN
Assistant Attorney General
165 Capitol Avenue
Hartford, CT 06106
Clare.Kindall@ct.gov
(860) 808-5261
Liaison Counsel for Plaintiff States
DIANNE M. NAST
Nastlaw LLC
1101 Market Street, Suite 2801
Philadelphia, PA 19107
(215) 923-9300
Lead Counsel for the Direct Purchaser
Plaintiffs

